<html>
<title> - BUSINESS MEETING ON COMMITTEE RESOLUTION RELATING TO ENERGY DEMONSTRATION PROJECTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
      BUSINESS MEETING ON COMMITTEE RESOLUTION RELATING TO ENERGY 
                         DEMONSTRATION PROJECTS

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

           Held in Washington, DC, Wednesday, April 28, 2010

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
57-843                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             DANIEL E. LUNGREN, California,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                      Jamie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director


      BUSINESS MEETING ON COMMITTEE RESOLUTION RELATING TO ENERGY 
                         DEMONSTRATION PROJECTS

                              ----------                              


                       WEDNESDAY, APRIL 28, 2010

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:08 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lofgren, Capuano, Davis of 
California, Lungren, and Harper.
    Staff Present: Tom Hicks, Senior Election Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Joe Wallace, Legislative Clerk; Greg Abbott, 
Professional Staff; Darrell O'Connor, Professional Staff; 
Shervan Sebastian, Staff Assistant; Victor Arnold-Bik, Minority 
Staff Director; Karin Moore, Minority Legislative Counsel; 
Salley Collins, Minority Press Secretary; Katie Ryan, Minority 
Professional Staff; and Mary Sue Englund, Minority Professional 
Staff.
    The Chairman. I would like to call the Committee on House 
Administration to order. I am hoping that this will be a nice, 
short meeting. Immediately following the conclusion of this 
meeting, we will begin the full committee oversight hearing.
    Today we will consider a committee resolution to authorize 
energy demonstration projects in the House of Representatives.
    And I now call up Committee Resolution 8, which is before 
the Members. And, without objection, the committee resolution 
is considered as read and open for amendment.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7843A.001
    
    The Chairman. Committee Resolution 8 authorizes the Chief 
Administrative Officer, CAO, to conduct a series of 
demonstration projects that explore ways to reduce energy 
consumption, leading to better energy efficiency and cost 
savings.
    Funds for the project were already approved through Public 
Law 11-68, the Fiscal Year 2010 Legislative Branch 
Appropriations Act. This act was adopted in a bipartisan 
fashion at both the subcommittee level and on the floor.
    Our committee, through adoption of the resolution, will 
exercise its authority under the rules of the House to initiate 
disbursements of the funds. Under the committee resolution, the 
CAO will have four requirements that must be met.
    First, the CAO will be required to submit project plans 
along with justification for the proposal to the Committee on 
House Administration before any appropriated funds may be 
spent.
    Second, the CAO must act in accordance for all procurements 
for proposed demonstration projects with the guidelines for 
procurement of goods and services for the U.S. House of 
Representatives.
    Third, the CAO must submit a detailed report to the 
committee outlining the progress and cost of each part of the 
demonstration project starting on the preceding month of the 
start date until project completion.
    And, finally, the CAO will be required to submit, upon 
completion of each project, an independent, third-party, expert 
evaluation detailing, among other things, the project's 
utility, efficiency, and economics.
    I urge approval of the committee resolution.
    And, if there is any additional debate, the 5-minute rule 
will be applied.
    Ranking Member Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    And I appreciate you calling this business meeting. In 
adhering to our normal legislative procedures, I do think it is 
important that we deliberate over and vote on issues such as 
these.
    Mr. Chairman, a number of my colleagues and I do have 
concerns, however, about this resolution. You know, yesterday, 
this committee took the unusual step of going to the floor of 
the House and introducing and passing a resolution which froze 
Members' salaries--in other words, it did not allow Members to 
receive the cost-of-living adjustment.
    And there was recognition during the debate that, while 
that does not have a significant impact on the budget relative 
to all the other expenditures, it was important for us to do 
that because it's symbolic and it also shows that we are aware 
of the very difficult economic situations that are affecting 
our constituents.
    And so, while in some other circumstances we may think a 
couple of million dollars is not that big a deal, it is a big 
deal these days. And I just have some concern about this 
program.
    It is my understanding that the Architect of the Capitol is 
responsible for dealing with the energy needs of the House, as 
well as the Senate. As I understand, the Architect of the 
Capitol is the one charged with ensuring that there is 
consistent, reliable energy for the House.
    And more than just providing this energy, the Architect of 
the Capitol is the one who has already been working within this 
House to improve energy efficiency. They have provided energy 
to these historic buildings over a century, all the while doing 
so with less energy, lower costs, and improved services over 
that period of time.
    And I just wonder why it makes sense for us to establish 
this within the province of the CAO. We have had some 
difficulty in terms of the program of carbon offsets. The waste 
composting program has been over-budget. I just don't see where 
this is a justification for putting another several millions of 
dollars to pay for demonstration projects.
    And so I understand--I can count the people who are here; I 
can see the way the vote is going to go. But I did want to at 
least register my concern and the concern of Members on our 
side of aisle about this. And I appreciate the chairman giving 
me the time.
    The Chairman. I thank the gentleman.
    Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I will be brief. And I would 
like to speak in favor of the resolution.
    This really follows on the 2007 initiation of the Greening 
of the Capitol program, which was assigned to the CAO. And the 
CAO established under that program a goal of reducing the 
House's energy consumption by 50 percent over 10 years, which 
obviously would be a huge cost-saver for the House.
    I just want to reflect back on some of our prior efforts on 
this. Congressman Zach Wamp and I introduced a bill to 
authorize the CAO to carry out a series of demonstration 
projects to promote the use of cutting-edge technologies. And 
the purpose of the bill was to find innovative ways to reduce 
energy consumption, promote energy efficiency, and to save 
costs, ultimately, for the House.
    Mr. Wamp and I reintroduced the bill this year, and the 
bill was marked up and reported out of the House Administration 
in June of last year. This authorization really follows along 
on that effort. The Leg Branch Appropriations has stepped 
forward to act. And, pursuant to their actions, the CAO did 
issue a request for proposals. I think 36 proposals were 
submitted. There was an outside group that evaluated them; it 
wasn't the CAO himself who did.
    And so now we want to assert our jurisdiction. And I think 
that is fair enough to do. I have talked to Mr. Wamp, who I 
think is somewhat frustrated at our pace of innovation, to be 
honest. But I think he does understand the need for the House 
Administration Committee, as well as Leg Branch, to play their 
appropriate role in this.
    And so, I really think--I understand and I certainly 
respect Mr. Lungren. We work together on many items. But I do 
think that this is a smart thing to do. And, you know, we can 
have differences of opinion, but I hope that the resolution 
will be adopted.
    And I yield back and thank the gentleman.
    The Chairman. I thank the lady.
    Any more debate?
    Are there any amendments?
    If not, the question is an agreement to the committee 
resolution.
    All those in favor, signify by saying, ``Aye.''
    Any opposed?
    In the opinion of the chair, the ayes have it. So ordered, 
that the ayes have it.
    Thank you. And we now will adjourn this meeting and go into 
our oversight hearing.
    [Whereupon, at 11:16 a.m., the committee proceeded to other 
business.]

</pre></body></html>
